IN THE SUPREME COURT OF THE UNITED STATES
October Term, 2020

ANTONIO HARRIS, )
)
Petitioner, ) On Petition for Writ of
)  Certiorari to the United
vs. ) States Court of Appeals
) for the Eighth Circuit
UNITED STATES OF AMERICA, )
) Supreme Court Case No.
Respondent. )
PROOF OF SERVICE

STATE OF MISSOURI )
CITY OF ST. LOUIS ;

The undersigned, being duly sworn and upon her oath, states as follows:

1. Iam counsel of record for Petitioner;

2. On this 31% day of December, 2020, I served copies of the Petitioner’s
Petition for a Writ of Certiorari plus its Appendix, Motion to Proceed In Forma
Pauperis, Entry of Appearance, Affidavit of Filing, plus this Proof of Service, on
each party to the above proceeding or that party’s counsel, on every other person
required to be served, by depositing an envelope containing copies thereof with the
United States Postal Service, first-class postage prepaid to:

Solicitor General Jeff Wall
U.S. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW

Washington, DC 20530-0001
(202) 514-2217
and by mailing a copy of those documents by hand to:

Tiffany G. Becker, Assistant United States Attorney
For the Eastern District of Missouri

Eagleton Federal Courthouse

111 South Tenth Street, 20" Floor

Saint Louis, MO 63102

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 31, 2020.

3. Further affiant sayeth not.

Respectfully submitted,

   
 
   

CILLE G.
Assistant Federal Public Defender
1010 Market, Suite 200

St. Louis, MO. 63101

(314) 241-1255

Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

SUBSCRIBED AND SWORN TO before me on this 3 jot day of December,

NOTARY PUBLIC ;

2020.

My commission expires:

 
